r

L

APPENDIX A

SUPERCEDING INDICTMENT

Casu l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 1 of 12 PagelD #: 1081
U.S. DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
RECEIVED - SHREVEPORT

APR 2 4 2013
TON' ' *. MOORED
BY—
“ deputy'

UNITED STATES DISTRICT COURT
\

WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION

UNITED STATES OF AMERICA
VERSUS

*

*
*
*
*
*
*
*
*
*

(01) MICHAEL J. WRIGHT
(02) DONTOUR D. DRAKES
(03) SEDRICKD. PORTER
(04) ABRAHAM BAYLOR, III
(05) EARNEST G. MILES, III
a/k/a “Gucci”
(06) TERRACE D. WINCHESTER *
*
(07) LEOTIS V. PERRY
*
(08) BRANDON C. THOMAS,
*
a/k/a “Lanky B”or “Lank”
*
(09) DENNIS LEE BRADFORD
*
(10) FALON S. MARICLE

*
*
*

CRIMINAL NO. 13-cr-00090-01/10
21 U.S.C. § 846
(Drug Conspiracy)
21 U.S.C. § 841(a)(1)
(Possession with Intent to
Distribute and Distribution of
Cocaine)
18 U.S.C. § 924(c)(1)
(Possession of a Firearm in
Furtherance of Drug Trafficking)
18 U.S.C. § 922(g)(1)
(Possession of a Firearm by a
Convicted Felon)
18 U.S.C. § 2
(Aid and Abet)
JUDGE DRELL
MAGISTRATE JUDGE KIRK

SUPER CEDINGTNDIUTMENT THE GRAND JURY CHARGES:
COUNT 1
Conspiracy
Beginning on or about January, 2012, and continuing until on or about
March 27, 2013, in the Western District of Louisiana and elsewhere, the
defendants, MICHAEL J. WRIGHT, DONTOUR D. DRAKES, SEDRICK D.
. T

Page 1 of 12

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 2 of 12 PageiD #: 1082

PORTER, ABRAHAM BAYLOR, III, EARNEST G. MILES, III, a/k/a “Gucci”,
TERRACE D. WINCHESTER, LEOTIS V. PERRY, BRANDON C. THOMAS,
a/k/a

“Lanky B”or “Lank”, DENNIS LEE BRADFORD, and FALON S.

MARICLE, and other persons known and unknown to the Grand Jury, did
knowingly and intentionally conspire and agree together to distribute and to
possess with the intent to distribute 5 kilograms and more of a mixture and

substance containing a detectable amount of cocaine, and 280 grams and more
of a mixture and substance containing a detectable amount of cocaine base, or
crack, both ScheduleII controlled substances, all in violation of Title 21, United
States Code, Sections 841(a)(1) and 846. [21 U.S.C. §§ 841(a)(1) and 846]
COUNT 2
Possession with Intent to Distribute
On or about December 12, 2012, in the Western District of Louisiana, the
defendant, MICHAEL J. WRIGHT, did knowingly and intentionally possess with
the intent to distribute 500 grams and more of a mixture and substance
containing a detectable amount of cocaine, a Schedule II controlled substance,
in violation of Title 21, United States Code, Section 841(a)(1).
841(a)(1)]

Page 2 of 12

[21 U.S.C. §

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 3 of 12 PagelD #: 1083

COUNT 3
Possession with Intent to Distribute
On or about December 12, 2012, in the Western District of Louisiana, the
defendant, MICHAEL J. WRIGHT, did knowingly and intentionally possess with
the intent to distribute a mixture and substance containing a detectable amount
of cocaine base, or crack, a Schedule II controlled substance, in violation of Title
21, United States Code, Section 841(a)(1). [21 U.S.C. § 841(a)(1)!

COUNT4
Possession with Intent to Distribute
On or about December 14, 2012, in the Western District of Louisiana, the
defendant, DONTOUR D. DRAKES, did knowingly and intentionally possess
with the intent to distribute 500 grams and more of a mixture and substance
containing a detectable amount of cocaine, a Schedule II controlled substance,
in violation of Title 21, United States Code, Section 841(a)(1).

[21 U.S.C. §

841(a)(1)]
COUNT 5
Possession with Intent to Distribute
On or about December 14, 2012, in the Western District of Louisiana, the
defendant, DONTOUR D. DRAKES, did knowingly and intentionally possess
with the intent to distribute 28 grams and more of a mixture and substance
Page 3 of 12

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 4 of 12 PagelD #: 1084

containing a detectable amount of cocaine base, or crack, a Schedule II
controlled substance, in violation of Title 21, United States Code, Section
841(a)(1). [21 U.S.C. § 841(a)(1)]
COUNT 6
Possession of a Firearm in Furtherance of Drug Trafficking
On or about December 14, 2012, in the Western District of Louisiana, the
defendant, DONTOUR D. DRAKES, during and in relation to a drug trafficking
crimes for which he may be prosecuted in a court of the United States, that is,
possession with the intent to distribute cocaine and cocaine base, or crack, as
alleged in Counts 4 and 5, and in furtherance of said drug trafficking crimes, did
possess a firearm, to wit: a .380 caliber Cobra semiautomatic pistol, model
FS380, in violation of Title 18, United States Code, Section 924(c)(1). [18 U.S.C.
§ 924(c)(1)]
COUNT 7
Possession of a Firearm by a Convicted Felon
On or about December 14, 2012, in the Western District of Louisiana, the
defendant, DONTOUR D. DRAKES, having previously been convicted of a crime
punishable by imprisonment for a term exceeding one year, that is, a felony, did
knowingly possess, in and affecting commerce, a firearm, to wit: a .380 caliber
Cobra semiautomatic pistol, model FS380, and ammunition, all in violation of
Page 4 of 12

' Case-l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 5 of 12 PagelD #: 1085

Title 18, United States Code, Section 922(g)(1). [18 U.S.C. § 922(g)(1)]
COUNT 8
Distribution of Cocaine
On or about February 7, 2013, in the Western District of Louisiana, the
defendant, SEDRICK D. PORTER, did knowingly and intentionally distribute
cocaine base, or crack, a Schedule II controlled substance, in violation of Title 21,
United States Code, Section 841(a)(1). [21 U.S.C. § 841(a)(1)]
COUNT 9
Possession with Intent to Distribute
On or about November 9, 2012, in the Western District of Louisiana, the
defendant, TERRACE D. WINCHESTER, did knowingly and intentionally
possess with the intent to distribute 28 grams and more of a mixture and
substance containing a detectable amount of cocaine base, or crack, a Schedule
II controlled substance, in violation of Title 21, United States Code, Section
841(a)(1). [21 U.S.C. § 841(a)(1)]
COUNT 10
Distribution of Cocaine
On or about April 19, 2012, in the Western District of Louisiana, the
defendant, BRANDON C. THOMAS, a/k/a “Lanky B” or “Lank”, did knowingly
and intentionally distribute cocaine base, or crack; a Schedule II controlled
substance, in violation of Title 21, United States Code, Section 841(a)(1). [21
Page 5 of 12

. Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 6 of 12 PagelD #: 1086

U.S.C. § 841(a)(1)]
COUNT 11
Distribution of Cocaine
On or about May 1, 2012, in the Western District of Louisiana, the
defendant, BRANDON C. THOMAS, a/k/a “Lanky B” or “Lank”, did knowingly
and intentionally distribute cocaine base, or crack, a Schedule II controlled
substance, in violation of Title 21, United States Code, Section 841(a)(1). [21
U.S.C. § 841(a)(1)]

COUNT 12
Distribution of Cocaine
On or about May 15, 2012, in the Western District of Louisiana, the
defendant, BRANDON C. THOMAS, a/k/a “Lanky B” or “Lank”, did knowingly
and intentionally distribute cocaine base, or crack, a Schedule II controlled
substance, in violation of Title 21, United States Code, Section 841(a)(1). [21
U.S.C. § 841(a)(1)]

COUNT 13
Distribution of Cocaine
On or about June 22, 2012, in the Western District of Louisiana, the
defendant, BRANDON C. THOMAS, a/k/a “Lanky B” or “Lank”, did knowingly
and intentionally distribute cocaine base, or crack, a Schedule II controlled
substance, in violation of Title 21, United States Code, Section 841(a)(1). [21
Page 6 of 12

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 7 of 12 PagelD #: 1087

U.S.C. § 841(a)(1)]
COUNT 14
Possession of a Firearm by a Convicted Felon
On or about March 1, 2013, in the Western District of Louisiana, the
defendant, BRANDON C. THOMAS, a/k/a “Lanky B” or “Lank”, having
previously been convicted of a crime punishable by imprisonment for a term
exceeding one year, that is, a felony, did knowingly possess, in and affecting
commerce, a firearm, to wit: a 9mm Ruger semiautomatic pistol, model P95, in
violation of Title 18, United States Code, Section 922(g)(1).

[18 U.S.C. §

922(g)(1)]
COUNT 15
Possession with Intent to Distribute
On or about September 6, 2012, in the Western District of Louisiana, the
defendants, LEOTIS V. PERRY, BRANDON C. THOMAS, a/k/a “Lanky B” or
“Lank”, and DENNIS LEE BRADFORD, did knowingly and intentionally
possess with the intent to distribute a mixture and substance containing a
detectable amount of cocaine base, or crack, a Schedule II controlled substance,
and did aid and abet the possession, all in violation of Title 21, United States
Code, Section 841(a)(1) and Title 18, United States Code, Section 2. [21 U.S.C.
§ 841(a)(1) and 18 U.S.C. § 2]

Page 7 of 12

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 8 of 12 PagelD #: 1088

COUNT 16
Possession with Intent to Distribute
On or about March 26, 2013, in the Western District of Louisiana, the
defendant, DENNIS LEE BRADFORD, did knowingly and intentionally
possess with the intent to distribute a mixture and substance containing a
detectable amount of cocaine base, or crack, a Schedule II controlled
substance, in violation of Title 21, United States Code, Section 841(a)(1). [21
U.S.C. § 841(a)(1)]
COUNT 17
Possession of a Firearm by a Convicted Felon
On or about March 27, 2013, in the Western District of Louisiana, the
defendant, LEOTIS V. PERRY, having previously been convicted of a crime
punishable by imprisonment for a term exceeding one year, that is, a felony, did
knowingly possess, in and affecting commerce, firearms, to wit: a .40 caliber
Springfield Armory semiautomatic handgun, and a .40 caliber Taurus, model
PT 24/7, semiautomatic handgun, and ammunition, all in violation of Title 18,
United States Code, Section 922(g)(1). [18 U.S.C. § 922(g)(1)]

Page 8 of 12

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 9 of 12 PagelD #: 1089

COUNT 18
Possession with Intent to Distribute
On or about October 11, 2012, in the Western District of Louisiana, the
defendant, FALON S. MARICLE, did knowingly and intentionally possess with
the intent to distribute cocaine, a Schedule II controlled substance, in violation
of Title 21, United States Code, Section 841(a)(1). [21 U.S.C. § 841(a)(1)]

FORFEITURE NOTICE
A.

The allegations in all counts are realleged and incorporated by

reference for the purpose of alleging forfeiture pursuant to the provisions of Title
21, United States Code, Section 853, Rule 32.2(a), Federal Rules of Criminal
Procedure, and Title 18, United States Code, Section 924(d).
1.

(a)

The allegations contained in this Superceding

Indictment are incorporated by reference for the purpose of alleging forfeiture
pursuant to the provisions of Title 18, United States Code, Section 924 (d)(1).
(b)

As a result of the violations in this Superceding

Indictment, the defendants shall forfeit to the United States the following
firearms and ammunition involved in the aforesaid offenses:
(1)

a .380 caliber Cobra semiautomatic pistol, model FS380,
seized by law enforcement officers on December 14, 2012,
from a residence of defendant DONTOUR D. DRAKES;
Page 9 of 12

Case i:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 10 of 12 PagelD #: 1090

(2)

a 9mm Ruger semiautomatic pistol, model P95, seized by law
\

enforcement officers on March 1, 2013, from a residence of
defendant BRANDON C. THOMAS, a/k/a “Lanky B” or
“Lank”.
(3)

a .40 caliber Springfield Armory semiautomatic pistol and a
.40 caliber Taurus, model PT 24/7, semiautomatic pistol*
seized by law enforcement officers on March 27, 2013, from
the residence of defendant LEOTIS V. PERRY;

B.

Upon conviction of the controlled substances offenses alleged in the

Counts set forth above of this Superceding Indictment, the defendants shall
forfeit to the United States all of their interest in:
1.

Any property consisting or derived from proceeds the defendants
obtained directly or indirectly as the result of said violations as set
forth in Count 1 of this Superceding Indictment, which include the
specific amounts set forth below, in the amount of $1,000,000; and

2.

Any property used or intended to be used in any manner or part to
commit or facilitate the commission of the aforementioned
violations.

C.

The property referred to in paragraph B above includes, but is not

limited to, the following:
Page 10 of 12

Qase l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 11 of 12 PagelD #: 1091

1.

$49,647 cash money seized by law enforcement officers on
December 14, 2012, from the residence of defendant
DONTOUR D. DRAKES;

2.

$4,030 cash money seized by law enforcement officers on
March 27, 2013, from the residence of defendant LEOTIS V.
PERRY,-

3.

$13,610 cash money seized by law enforcement officers on
March 26, 2013, from the residence of defendant ABRAHAM
BAYLOR, III;

D.

By virtue of the offenses charged in this indictment, any and all

interest in the above-described property is vested in the United States and is
forfeited to the United States pursuant to Title 21, United States Code, Section
853, Rule 32.2(a), Federal Rules of Criminal Procedure, and Title 18, United
States Code, Section 924(d).
E.

If any of the property described above as being subject to forfeiture

as a result of any act or omission of the defendants:
1.

cannot be located upon the exercise of due diligence;

2.

has been transferred or sold to, or deposited with, a third person;

3.

has been placed beyond the jurisdiction of the Court;

4.

has been substantially diminished in value; or
Page 11 of 12

Case l:13-cr-00090-DDD-JDK Document 143 Filed 04/24/13 Page 12 of 12 PagelD #: 1092

5.

has been commingled with other property which cannot be
subdivided without difficulty,

it is the intent of the United States, pursuant to Title 21, United States Code,
Section 853(p) to seek forfeiture of any other property of the defendant up to the
value of the property subject to forfeiture.
All in accordance with Title 21, United States Code, Section 853, Rule
32.2(a), Federal Rules of Criminal Procedure, and Title 18, United States Code,
Section 924(d).
A TRUE BILL:

'R'EDACT'ED
FOREMAN OF THE GRAND JURY
STEPHANIE A. FINLEY
UNITED STATES ATTORNEY

MMES G. COWLES, Jr. (Bar No. 4516)
Assistant United States Attorney
300 Fannin Street, Suite 3201
Shreveport, Louisiana 71101-3068
(318) 676-3600

Page 12 of 12

APPENDIX B
PLEA AGREEMENT WITH GOVERNMENT

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 1 of 8 PagelD #: 581

UNITED STATES DISTRICT COURT
TONY H. MOORE, CLERK
(
WESTERN DISTRICT OF LOUISIANA'
ALEXANDRIA, LOUISIANA

WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION

UNITED STATES OF AMERICA
VS.
DONTOUR D. DRAKES

*
★
*
*
*
*
*

CRIMINAL NO. 13-00090 - '0>L

JUDGE DRELL
MAGISTRATE JUDGE KIRK

PLEA AGREEMENT
A.

INTRODUCTION
1.

This document contains the complete plea agreement between the

Government and DONTOUR D. DRAKES, the Defendant. No other agreement,
understanding, promise, or condition exists, nor will any such agreement,
understanding, promise or condition exist unless it is committed to writing in an
amendment attached to this document and signed by the Defendant, an attorney .for
the Defendant, and an attorney for the Government. The terms of this plea agreement
are only binding on the Defendant and the Government if the Court accepts the
Defendant’s guilty plea.
B.

THE DEFENDANT’S OBLIGATIONS
DONTOUR D. DRAKES shall appear in open court and plead guilty to

Counts 1 and 2 of the Bill of Information pending in this case.
Page 1 of 8

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 2 of 8 PagelD #: 582

C.

THE GOVERNMENT’S OBLIGATIONS
1.

If the Defendant completely fulfills all of his obligations under this plea

agreement, the Government agrees not to prosecute the Defendant for any other
offense known to the United States Attorney's Office, based on the investigation which
forms the basis of the Indictment, and agrees to dismiss the Superceding Indictment
against the Defendant after sentencing.
2.

The Government will and hereby moves pursuant to U.S.S.G. § 3El.l(b)

for the Defendant to receive a one point reduction in his offense level should that
offense level be 16 or greater, as the Defendant has assisted authorities in the
investigation or prosecution of his own misconduct by timely notifying authorities of
his intention to enter a plea of guilty, thereby permitting the Government to avoid
preparing for trial and permitting the Government and the Court to allocate their
resources efficiently.
D.

SENTENCING
DONTOUR D. DRAKES understands and agrees that:
1.

the maximum punishment on Countl of the Bill of Information is a term

of imprisonment of not more than 20 years, a fine of not more than $1,000,000, or both
(pursuant to 21 U.S.C. § 841(b)(1)(C)).
2.

he shall receive a term of Supervised Release of at least 3 years in length

in addition to any term of imprisonment imposed by the Court, as mandated by 21
U.S.C. § 841(b)(1)(C);

Page 2 of 8

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 3 of 8 Page ID #: 583

3.

the maximum punishment on Count 2 of the Bill of Information is a term

of imprisonment of not less than 5 years nor more than life imprisonment.
which term of imprisonment shall run consecutively to any term of
imprisonment imposed on Count 1. a fine of not more than $250,000, or both.
Additionally, Defendant may receive a term of Supervised Release of at least 3 years
nor more than 5 years in length in addition to the term of imprisonment imposed by
the Court, all pursuant to 18 U.S.C. § 924(c).
4.

he shall be required to pay a special assessment of $100 per count at the

time of the guilty plea by means of a cashier’s check, bank official check, or money
order payable to “Clerk, U.S. District Court;”
5.

a violation of any condition of Supervised Release at any time during the

period of Supervised Release may result in the Defendant being incarcerated over and
above any period of imprisonment initially ordered by the Court;
6.

the period of incarceration for a violation of a condition of Supervised

Release could be as much as the full term of Supervised Release initially ordered by the
Court regardless of the amount of time of the Supervised Release the Defendant had
successfully completed;
7.

as part of the presentence investigation the Government will make

available to the Court all evidence developed in the investigation of this case;
8.

. this case is governed by the Sentencing Reform Act, as modified bv United

States v. Booker. 543 U.S. 220 (2005), that he has discussed the Sentencing Guidelines
and their applicability with his counsel, and he understands and acknowledges that
Page 3 of 8

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 4 of 8 PagelD #: 584

a final determination of the applicable guidelines range cannot be made until the
completion of the presentence investigation;
9.

the sentencing judge alone will decide what sentence to impose; and

10.

the failure of the Court to adhere to a sentencing recommendation

tendered by counsel shall not be a basis for setting aside the guilty plea which is the
subject of this agreement.
11.

The Defendant agrees to abandonment, for destruction or official use, of

any and all interest that he may have in any and all illegal drugs, weapons,
ammunition, drug paraphernalia, contraband, and drug proceeds seized by local, state
and federal authorities in the investigation, arrest and prosecution of this matter. The
defendant further agrees to execute any documents or take any other steps requested
by the Government to accomplish abandonment or to resolve any claims against the
assets in this case.
E.

FORFEITURE
1.

The Defendant understands and acknowledges that the Superceding

Indictment contains a Forfeiture Notice. The Defendant consents and agrees to forfeit
to the United States, immediately and voluntarily, all of his right, title, and interest
in all assets attributable to him as listed in the Forfeiture Notice, specifically:

2.

(A)

the firearm described in (A)(l)(b)(l) of the Forfeiture Notice;

(B)

the cash money described in (C)(1) of the Forfeiture Notice.

The Defendant acknowledges and agrees that forfeiture of the above-

described assets is authorized and proper pursuant to the provisions of 18 U.S.C. §§
Page 4 of 8

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 5 of 8 PagelD #: 585

981 and 924(d), and 21 U.S.C. §853. In the event that forfeiture is not authorized
pursuant to those provisions, Defendant acknowledges that surrender and transfer of
these assets is a condition of this Plea Agreement.
3.

The Defendant knowingly and voluntarily waives his right to a jury trial

on the forfeiture of assets. The Defendant further specifically agrees to the entry of a
preliminary order of forfeiture of the above-described assets at the time of the
Defendant’s entry of a change of plea.
4.

The Defendant agrees to take whatever steps are necessary to pass clear

title to the cash assets listed to the United States. These steps include, but are not
limited to, drafting and signing of any document necessary to effectuate transfer of the
assets.
F.

COOPERATION
1.

DONTOUR D. DRAKES agrees to cooperate fully and truthfully in the

Government's investigation into this and any other criminal matter about which the
defendant has knowledge.
2.

DONTOUR D. DRAKES agrees and understands that such cooperation

shall include, but is not limited to, testifying before the grand jury or at trial if
requested by the Government. The Defendant understands that his failure to testify
truthfully can result in the Defendant being prosecuted for perjury or giving false
statements and in the Government withdrawing from this Plea Agreement.
3.

The Defendant understands that while he is being offered use immunity

for all prospective statements to law enforcement agents and testimony, given as a
Page 5 of 8

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 6 of 8 PagelD #: 586

result of this agreement, such statements and testimony are subject to the penalties
of perjury and giving false statements if not completely honest and factual, and that
this Plea Agreement can be withdrawn if the Defendant makes false statements or
substantially misrepresents his role in the offense.
4.

At or before the time of sentencing, the United States will advise the

Court of any assistance provided by the Defendant.
5.

The United States may, but shall not be required to, make a motion

requesting the Court to depart from the sentencing range called for by the guidelines,
or a motion for relief under 18 U.S.C. § 3553(e) from any mandatory minimum
sentence, in the event he provides "substantial assistance." This decision shall be in
the sole and non-reviewable discretion of the United States Attorney.
6.

It is understood and agreed that a motion for departure shall not be made

under any circumstances unless the Defendant's cooperation is deemed "substantial"
by the United States Attorney. The United States has made no promise, implied or
otherwise, that the Defendant will be granted a "departure" for "substantial
assistance." Further, no promise has been made that a motion will be made for
departure even if the Defendant complies with the terms of this agreement in all
respects, but has been unable to provide "substantial assistance."
7.

It is understood that even if a motion for departure is made by the

Government, based upon the Defendant's perceived "substantial assistance," the final
decision as to how much, if any, reduction in sentence is warranted because of that
assistance, rests solely with the District Court.
Page 6 of 8

Case l:13-cr-00090-DDD-JDK Document 257 Filed 10/31/13 Page 7 of 8 PagelD #: 587

G.

REINSTATEMENT OF ORIGINAL INDICTMENT.
1.

• DONTOUR D. DRAKES understands and agrees that should this plea

be overturned for any reason at a later date, the Indictment, in its entirety, will be
automatically reinstated without need for presentment to a Grand Jury or any motion
or other action by the Government.

H.

SIGNATURE OF ATTORNEY FOR THE DEFENDANT. THE DEFENDANT.
AND THE ATTORNEY FOR THE GOVERNMENT
I have read this plea agreement and have discussed it fully with my client,

DONTOUR D. DRAKES. It accurately and completely sets forth the entire plea
agreement. I concur in the decision by DONTOUR D. DRAKES to plead guilty as set
forth in this plea agreement.

UjOausMUiL

Dated:

0HA/1

Christopher LaCour
Attorney for the Defendant
I have read this plea agreement and have discussed it with my attorney. I fully
understand the plea agreement and accept and agree to it without reservation. I do
this voluntarily and of my own free will. No threats have been made to me, nor am I
under the influence of anything that could impede my ability to fully understand this
plea agreement.
I affirm that absolutely no promises, agreements, understandings, or conditions
have been made or entered into in connection with my decision to plead guilty except
those set forth in this plea agreement.
Page 7 of 8

-\JWyJV~lSL*/LS~\JLS\\

U'UUUIIICMl 4.JI

I

IICU JLW/vJ>-U_LU

I"aye u ui kj rayciu rr. sjuv

I am satisfied with the legal services provided by my attorney in connection with
this plea agreement and the matters related to this case.
Dated:

\r"' Xd ^ 0-&! ^
DONTOUR D. DRAKES
Defendant

I accept and agree to this plea agreement on behalf of the United States of
America.
a*

Dated:

STEPHANIE A. FINLEY
UNITED STATES ATTORNEY
By:
Cowles, Jr. (Bar No. 4516)
Assistant United States Attorney

Page 8 of 8

Case l:13-cr-00090-DDD-JDK Document 257-1 Filed 10/31/13 Page 1 of 2 PagelD #: 589

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
TONY a MOORE, CLERK
WESTERN DISTRICT OF UOUISI
ALEXANDRIA, LOUISIANA

ALEXANDRIA DIVISION

UNITED STATES OF AMERICA
VERSUS
DONTOUR D. DRAKES

★
*
*
*
*

CRIMINAL NO. 13-00090
JUDGE DRELL
MAGISTRATE JUDGE KIRK

UNDERSTANDING OF MAXIMUM PENALTY
AND CONSTITUTIONAL RIGHTS
I, DONTOUR D. DRAKES, the above named defendant, having been
furnished a copy of the charge and having discussed same with my attorney, state
that I understand the nature of the charge against me and the maximum possible
penalty that may be imposed against me as set forth in the plea agreement.
I further state that I understand:
1.

My right to be represented by counsel (a lawyer) of my choice, or if I
cannot afford counsel, my right to be represented by Court-appointed
counsel at no cost to me.

2.

My right to plead guilty or not guilty.

3.

My right to have a jury trial with twelve jurors who must all agree as to
my guilt in order to convict.

4.

My right not to be required to testify against myself or at all, if I do not
so desire.

V .

Case l:13-cr-00090-DDD-JDK Document 257-1 Filed 10/31/13 Page 2 of 2 PagelD #: 590

5.

My right to confront and cross-examine witnesses against me and my
right to have compulsory process to require witnesses to testify.

I realize that by pleading guilty I stand convicted of the crimes charged and
waive my privilege against self-incrimination, my right to jury trial, my right to
confront and cross-examine witnesses, and my right of compulsory process.
I further state that my plea in this matter is free and voluntary and that it
has been made without any threats or inducements whatsoever (except the plea
agreement) from anyone associated with the State or United States Government or
my attorney and that the only reason I am pleading guilty is that I am in fact guilty
as charged.
, 2013.

Thus done and signed this

•Oft
DONTOUR D. DRAKES
Defendant

Christopher K. LaCour
Attorney for Defendant

!•

Case l:13-cr-00090-DDD-JDK Document 257-2 Filed 10/31/13 Page 1 of 3 PagelD #: 591

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
TONY R. MOORE, CLERK 1
WESTERN DISTRICT OF LOUISIAN]
ALEXANDRIA, LOUISIANA

ALEXANDRIA DIVISION

UNITED STATES OF AMERICA

*

CRIMINAL NO. 13-00090 *^3

+

VS.

*

JUDGE DRELL

*

DONTOURD. DRAKES

*

MAGISTRATE JUDGE KIRK

FACTUAL BASIS FOR GUILTY PLEA

This Factual Basis is submitted in accordance with Federal Rules of Criminal
Procedure, Rule 11(b)(3). The parties signing below agree and stipulate to the following
facts which form the basis for a guilty plea.
The Federal Bureau of Investigation (FBI) Task Force commenced an investigation into
cocaine trafficking in the Avoyelles and Rapides Parishes areas of Louisiana in 2012. This
Defendant was identified as such a trafficker.
Title III wiretaps were authorized during the investigation, including on the telephone
of this Defendant.

DRAKES was intercepted in conversations with other co-defendants

discussing cocaine trafficking on several occasions. Based on the intercepts, it was revealed
that DRAKES obtained quantities of cocaine from co-defendant Michael Wright, who in turn
1

Case l:13-cr-00090-DDD-JDK Document 257-2 Filed 10/31/13 Page 2 of 3 PagelD #: 592

obtained cocaine from Houston, Texas.
On December 14, 2012, federal search wauants were executed at two residences used
by DRAKES in Alexandria, LA. At a Douglas Street residence, 1,865.8 grams net weight of
cocaine powder and 349.8 grams net weight of cocaine base, or crack, were found, hidden in
sofa cushions, packaged for sale. A loaded .380 caliber Cobra semiautomatic pistol was also
found with the packaged cocaine.
At a Cummings Street residence, $49,647 cash was seized, hidden in sofa cushions.
DRAKES was present and admitted to holding the cash for a drug dealer.
These facts form the basis for a guilty plea to Count 1 of the Bill of Information, Drug
Conspiracy, 21 U.S.C. § 846, and to Count 2 of the Bill of Information, Possession of a
Firearm in Relation to Drag Trafficking, 18 U.S.C. § 924(c).
Signed this

day of

DONTOURD. DRAKES
DEFENDANT ■

Christophef LaCour
Attorney for Defendant

2

r

Ca°c i:13-cr-00090-DDD-JDK Document 257-2 Filed 10/31/13 Page 3 of 3 PagelD #: 593

[Fact Basis, p. 3, continued]
STEPHANIE A. FINLEY
STATES ATTORNEY

/lames G. Cowles, jfcBar No. 4516)
Assistant United States Attorney
Western District of Louisiana

3

1

APPENDIX D - 1
•v

18 U.S.C. § 3582(c)(2) MOTION FILED
IN DISTRICT COURT

t

<

UNITED STATES D [STRICT COURT
WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION
DONTOUR D. DRAKES

*

-v
v.
UNITED STATES OF AMERICA

*
*
*
*
*
*

.

CRIMINAL ACTION NUMBER
13-00090-02
Alexandria, Louisiana

MOTION FOR MODIFICATION OR REDUCTION OF SENTENCE
PURSUANT TO 18 U.S.C. § 3582(c)(2)
and Amendment 782 DRUG-MINUS-TWO
DONTOUR D. DRAKES hereby requests a modification or reduction of
his sentence pursuant to 18 U.S.C. § 3582(c)(2) and Amendment
782 Drug-Minus-Tvo per. the U.S. Sentencing Guideline

which made

a reduction in the base offense levelfor new Federal Drug Guide­
line Sentence reductions retroactive as of July 19, 2014, effective date of November 1, 2014

and in support of my motion state

as follows:
Pursuant to 18 U.S.C. § 3582(c)(2) and § 2D1.1, and according to the authority in.U.S.S.G. § 1B1.10(a)(1); In a case
in which a defendant is serving a term of imprisonment and'
the guideline range is applicable to the defendant has
subsequently been lowered as. a result of an amendment to
the Guideline Manual listed in U.S.S.G. § 1B1.10(c), the
Court may reduce the defendant-.' s term of imprisonment as
provided by 18 U.S.C. § 3582(c)(2).
D0NT0UR D. DRAKES respectfully directs the Courts attention to •
the memorandum in support of the instant motion and Articles of
Attachment and for reasons set forth herein.

The defendant res-

pectully requests that this Court grant his motion and reduce
his sentence.

On July 17, 2013, DONTOUR D. DRAKES plead guilty to Count 1
and Count 6 of the superseding indictment,

DRAKES, Count 1

of the superseding indictment charges you with an offense of
conspiracy beginning on or about January 2012 and continuing
until on or about March 27, 2013.

And it alleges that you and

other people named in the indictment knowingly and intentionally
conspired and agreed together to distribute and to possess with,
intent to distribute 5 kilograms and more of a mixture and sub­
stance containing a detectable amount of cocaine, and 280 grams
and more of a mixture and substance containing a detectable
amount of cocaine base or crack cocaine.
In Count 6, you're charged with possession of a firearm in furth­
erance of drug trafficking.

And it alleges that on or about Dec­

ember 14th, 2012, you, in relation to drug trafficking crimes
for which you could be prosecuted in a Court of the United States;
in this case, possession with intent to distribute cocaine and.
cocaine base, or crack, and in furtherance of the drug traffick­
ing crimes shown in Counts 4 and 5, you possessed a firearm; in
this'case, a .380 caliber Cobra semi automatic" pistol, model FS.380.

That's alleged to be a violation of Title 18, United States

Code, Seciton 924 (c)(1).
Now, are those the offenses that you are offering to plead quilty
to today?
A pre-sentence investigation report was prepared and indicated a
’

criminal history category of VI, with a total offense level of 29,
and a resulting guideline sentence range of 151-188 months of
2

imprisonment.

See ROA 1, 4 and 5.

On January 30, 2014, the District Court Judge sentence DONTOUR
D. DRAKES to. a sentence base offense level 29, category 1, 87108 months imprisonment.

See in Sentence Transcripts ROA 12.

So pursuant to the Sentencing Reform Act of 1984 and
United States v. Booker, the defendant, Dontour D.
Drakes, is sentenced to serve a 108-monthseterm.c ofnrimpri sonment in the coustody of the U.S. Bureau of Prisons
as to Count 1. as to Count 2, he's senteced to serve a
60-month; term of imprisonment in the custody of the
U.S. Bureau of Prison, which will run consecutively to
Count 1, for a total term of 168 months.
The Amendment 782 Drug-Minus-Two generally reduces by two levels
the base offense level; of 27, 70-87 months imprisonment for all.
drug types in the drug quantity table in guideline §2D1.1.
Courts can begin hearing and granting motions for sentence reduc­
tion starting on November 1, 2014.
The Sentencing Commisssion adopts an Amendment reducing'a guide­
line range the Commission has express-statutory-authority-indeed,
it may even have a statutory duty-to determine whether, and under
what circumstances courts will be allowed to apply the Amendment
retroactively to sentences imposed prior to the Amendments effec­
tive date.

The status provides:

If the Commission reduces the term of imprisonment
recommended in the guidelines applicable to a particular
offense or category of offense, it shall specify in what
circumstances and by what amount the sentences of prison­
ers serving terms of imprisonment for the offense may
by reduced.
28. U.S.C. §994(u)
When the Commission determines that an Amendment may be applied
retroactively, a court may reduce a sentence, but only under the
circumstances and to.the extent specified by the Commission.
3

r\

The Court may act on its own motion or on motion of a defendant
or the Bureau of Prisons..

The statute that authorizes a sentence

reduction provides:
In the case of a defendant who has been sentenced to a
term of imprisonment based.on a sentencing range that
has subsequently been lowered by the Sentencing Comm­
ission pursuant to 28 U.S.C. 994, upon the motions of
the defendant or the Bureau of Prisons, or on its own
motions, the court may reduce the term of imprisonment,
after considering the factors set forth in section
§ 3553(a) to the extent that they are applicable, if
such a reduction is consistent with applicable policy
statements issued by the Sentencing Commission.
18 U.S.C. §3582(c)(2)
The "applicable policy statements issued by the commission,"
within meaning of §3582(c)(2), are set forth in Guidelines
§ 1B1.10. As set forth there, proceeding under §3582(c)(2)
do not Constitute a full resentencing of the defendant.
United:States Sentencing ManuaL§lBl.lO(a)(3). Reduction
under §3582(c)(2) thus may and most commonly have beenhandled upon written submission without a bearing.
Acting under its §994(u) authority, on July 19, 2014 the' Commiss­
ion amended guidelines §1B1.10 to include Amendment 782 in the
list of retroactive amendments the Commisssion imposed explicit
limits tions.
First, the Commission set November 1, 2014, as the effective date
for retroactivity and courts must not make a reduction effective
prior to that date.

Second, courts must not make a reduction un-

less:Amendment 782 changes the defendats guideline range,

.Third,

the Commission limited the permissable reduction for a defendant
serving a sentence within the original guideline range; a court
must not reduce such a sentence below the low-end of the amended
guideline range.

Because the amended guideline ranges low-end

can never be lower than.the minimum mandatory sentence, this
4

third limitation confirms what would be clear from the governing statue anyway: a court must not reduce

a sentence below any

applicable mandatory minimum.
Having established the new, applicable guideline range, Original
guideline base offense level for DONTOUR D. DRAKES, was a level
29 at the time of sentencing and his criminal history was VI.
This produced a guideline range of 151-188 months

the court im-

posed a 108 "months imprisonment in the guideline range,

DRAKES

new amended guideline ran-ge under Amendment 782 will be at base
offense level of 27 and criminal history I, 70-87 months impr.isonment.

DONTOUR D. DRAKES now turns to the District, Court to

his term of supervised release

and this is also part of his

original sentence for which he prays for relief.

DRAKES was sen-

tenced to 3 years of supervised release after the completion of
the term of his original sentence.

Under U.S.S.G. §lBl.l(4)(b)

APPICANT ON NOTE PERTAINING TO SUPERVISED RELEASE: Modification
relating to’ early termination reads:
If the prohibition in subsection (b)(2)(c) relating to time
already served precludes a reduction otherwise would have been
appropriate as a result of the Amended guideline range determine
under (b)(1), the court may consider any such reduction that it
was unable to grant in connecion with any motion for early termin­
ation of a term of supervised release under 18 U.S.C. §3583(e)(l).
However, the fact that a defendant may have served a longer term
of imprisonment than the court determines would have been appropr­
iate in view of the amended guideline range determined under subsection (b)(1) shall not, without more, provide a basis for early
termination of supervised release.
5

lather, the Court should take

into account tbe totality of circumstances relevant to a deci­
sion to terminate supervised release, including tbe terms of
supervised release that would have bee appropriate in connection
with a sentence under tbe amended guideline range determined under
subsection (b)(1).

DONTOUR D. DRAKES bumbly urges tbe Court to

take those factors into consideration

as defendant has been in to­

tal compliance throughout bis term of incarceration.

Movant prays

for relief in this instance and asks tbe Court to show leniency
and include any and all: factors pertaining to 18 U.S.C. §2553(a)
that may be applicable.
ARTICLES OF ATTACHMENT
DONTOUR D. DRAKES asks tbe Court to take into consideration certain
attached articles included along with this motion,

DRAKES bas

taken full advantage of bis period of incarceration and efforts
at post-conviction rebabilitation.

CONCLUSION
In conclusion, DONTOUR D. DRAKES in tbe instant case, respectfully
request that this Honorable Court grant bis MOTION FOR REDUCTION
OF SENTENCE

pursuant to 18 U.S.C. §3582(c)(2) and Amendment 782

DRUG-MINUS-TWO

and §1B1.10 and to modify bis term of- Supervised

Release.Done this

fh day of April 2019.

Clerk of Court
United States District Court
Western District of Louisiana
Alexandria Division

Respectfully Submitted,

(Dflo ~fa vT

Q. D

£

Dontour D. Drakes
#16320-035
USP-Pollock Satellite Camp
P0 Box 2099
Pnl 1 nrl/

T A

7 1 /, £ 7

V

CERTIFICATE OF. SERVICE
I

DONTOUR D. DRAKES, do. hereby certify and affi rm under- penalty

of perjury (28 U.S.C. § 1746) that the Motion contained is true,
correct, and complete to the bes of my knowledge.

This Motion

was sent first class, prepaid postage and placed into a mail
recepticle

in the Bureau of Prisons-USP Pollock Satellite. Camp

facility on April

2019, and mailed to:

Clerk of Court
United States District Court
Western District of Louisiana
Alexandria Division

Respectfully Submitted,

Da a 4ou r J) D SCI
Dontour D. Drakes
#16320-035
USP-Pollock Satellite Camp
P0 Box 2099
Pollock, LA 71467

Appendix D-2

Opinion From The United States
District Court For The Western
District Of Louisiana

AO 247 (10/11) Order Regarding Motion for Sentence Reduction Pursuant to 18 U.S.C. § 3582(c)(2)

Page 1 od (Page 2 Not for Public Disclosure)

UNITED STATES DISTRICT COURT
For the
Western District of Louisiana
United States of America
v.
DONTOUR DRAKES
Date of Original Judgment:
Date of Previous Amended Judgment:

)
)

01/30/2014

(Use Date ofLast Amended Judgment if Any)

)
)
)

Case No: 13-00090-02
USMNo: 16320-035
ProSe
Defendant’s Attorney

Order Regarding Motion for Sentence Reduction Pursuant to 18 U.S.C. § 3582(c)(2), U.S.S.G. §1B1.10,
and retroactive Amendment 782, as amended effective November 1, 2014.
Upon motion of ■the defendant □ the Director of the Bureau of Prisons Dthe court under 18 U.S.C.
§ 3582( c )(2) for a reduction in the term of imprisonment imposed based on a guideline sentencing range that
has subsequently been lowered and made retroactive by the United States Sentencing Commission pursuant to 28
U.S.C. § 994(u), and having considered such motion, and taking into account the policy statement set forth at
USSG §IB1.10 and the sentencing factors set forth in 18 U.S.C. § 3553(a), to the extent that they are applicable,

IT IS ORDERED that the motion is:
. ■ DENIED. □ GRANTED and the defendant's previously imposed sentence of imprisonment (as
reflected in the lastjudgment issued) of
months is reduced to
months.

(Complete Parts I and II of Page 2 when motion is granted)

j*.

Except as otherwise provided, all provisions of the judgment datedremain in effect.
IT IS SO ORDERED.
Order Date:

/rr5 3 ,
Judge’s signature

Effective Date:
(If different from order date)

Dee D. Drell. Senior U.S. District Judge
Printed name and title

U.S. District Court
Western District of Louisiana
Notice of Electronic Filing
The following transaction was entered on 2/4/2020 at 9:03 AM CST and filed on 2/3/2020
Case Name:

USA v. Wright et al

Case Number:

1:13-cr-00090-DDD-JDK

Filer:
Document Number:

486

Docket Text:
FIRST STEP ACT JUDGMENT as to Dontour D Drakes (2), Count(s) 1, 4-5, 6, 7, Dismissed by
Superceding Indictment filed 4/24/2013; Count(s) Is, 4s-5s, 6s, 7s, Dismissed on motion of the
government at sentencing held 1/30/2014; Count(s) lss, ORIGINAL SENTENCE: Defendant
sentenced to 108 months imprisonment, credit for time served; 3 years Supervised release, Fine
and Interest waived; $100 Special Assessment. FIRST STEP ACT JUDGMENT filed 2/3/2020:
Pursuant to 18 USC § 3582(c)(2), USSG § 1B1.10, and retroactive Amendment 782, defendant’s
previously imposed sentence remains unchanged; Count(s) 2ss, ORIGINAL SENTENCE:
Defendant sentenced to 60 months, to run consecutively with Count 1; Supervised release for a
term of 3 years, to run concurrently with Count 1; Fine and Interest waived; $100 Special
Assessment. Except as otherwise provided, all provisions of the judgment dated January 31,
2014 remain in effect. Signed by Judge Dee D Drell on 2/3/2020. (crt,Bray, K)

U.S. District Court
Western District of Louisiana
Notice of Electronic Filing
Tfie following transaction was entered on 2/4/2020 at 8:58 AM CST and filed on 2/4/2020
Case Name:

USA v. Wright et al

Case Number:

1:13-cr-00090-DDD-JDK

Filer:
Document Number:

485

Docket Text:
ORDER Pursuant to 18 USC § 3582(c)(2), USSG § 1B1.10, and retroactive Amendment 782, as
amended effective November 1, 2014, denying [453] Motion to Reduce Sentence as to Contour D
Drakes (2); denying [456] Motion to Reduce Sentence - USSC Amendment as to Dontour D
Drakes (2); denying [478] Motion to Reduce Sentence Pursuant to 18 USC §3582(c)(l) and
Section 404 of the First Step Act as to Dontour D Drakes (2). Signed by Judge Dee D Drell on
2/3/2020. (crt,Bray, K)

V
*• t-

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION
UNITED STATES OF AMERICA

CASE NO. 13-CR-00090-02

VERSUS

JUDGE DEE D. DRELL

DONTOUR DRAKES

MAGISTRATE JUDGE PEREZ-MONTES

FiKSi STEP ACT

Pursuant to Section 404 of the First Step Act,

IT IS HEREBY ORDERED, ADJUDGED AND DECREED that the Judgment imposed
on January 30, 2014, sentencing Defendant DONTOUR DRAKES
to a term of 108 months
imprisonment, as to Count 1, and to a term of 60 months as to Count 2, to run consecutively, to be
followed by 3 years consecutive terms of supervised release is NOT AMENDED.
All provisions of the Judgment imposed on January 31, 2014 remain in effect.

SIGNED this r-

<r
Dee D. Drell
Senior United States District Judge

1

APPENDIX E
FIFTH CIRCUIT COURT OF APPEALS'

t

OPINION

l

I

!

®mtei) States Court of appeals
for tfjc Jfiftf) Circuit

United States Court of Appeals
Fiftti Circuit

I
!

FILED
October 14, 2020

No. 20-30091
Summary Calendar

Lyle W. Cayce
Clerk

:

United States of America,
Plaintiff—Appellee,
versus
Dontour D. Drakes
Defendant—Appellant.

Appeal from the United States District Court
for the Western District of Louisiana
USDC No. l:13-CR-90-2

Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:*
Dontour D. Drakes, federal prisoner # 16320-035, appeals the denial
of his motion to reduce his sentence under 18 U.S.C. § 3582(c)(2) based on
Amendment 782 to the Sentencing Guidelines and the First Step Act. We
review the district court’s decision whether to reduce a sentence under

i

’ Pursuant to 5TH Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

v-

UNITED STATES OF AMERICA, Plaintiff-Appellee, v. STEPHEN LEON WILLIAMS,
Defendant-Appellant.
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
2018 U.S. App. LEXIS 23495
No. 17-6409
August 21, 2018, Filed
Editorial Information: Subsequent History
Motion granted by, Sentence imposed by United States v. Williams, 2018 U.S. Dist. LEXIS 178168 (E.D.
Tenn., Oct. 17, 2018)
Editorial Information: Prior History
United States v. Williams, 2017 U.S. Dist. LEXIS 183931 (E.D. Tenn., Nov. 7, 2017)
{2018 U.S. App. LEXIS 1}For United States of America, Plaintiff Appellee: Donald Wayne Taylor, Assistant U.S. Attorney, Office of the U.S. Attorney,
Greeneville, TN.
For Stephen Leon Williams, Defendant - Appellant: Jennifer
Niles Coffin, Federal Defender Services, Knoxville, TN.
Judges: Before: ROGERS, KETHLEDGE, and NALBANDIAN, Circuit Judges.
Counsel

Opinion

ORDER
Defendant Stephen Leon Williams appeals the denial of his motion for a reduction in sentence under
18 U.S.C. § 3582(c)(2). The parties jointly move for a remand to the district court for reconsideration
in light of Hughes v. United States. 138 S. Ct. 1765, 201 L. Ed. 2d 72 (2018). In Hughes, the Court
held that a defendant can seek a sentence reduction pursuant to § 3582(c)(2) even if he entered into
a plea agreement under Federal Rule of Criminal Procedure 11(c)(1)(C) that did not expressly rely
on a sentencing range from the Guidelines. Id. at 1775-76. The joint motion is well-taken. The
holding in Hughes has abrogated this circuit's precedent to the extent that we have suggested that §
3582(c)(2) only applies to a sentence imposed under a Rule 11(c)(1)(C) plea agreement where that
agreement specifically relies on a Guidelines range. See United States v. Garrett, 758 F.3d 749, 755
(6th Cir. 2014). Now, under Hughes, a sentence imposed under a Rule 11(c)(1)(C) agreement can be
based on the relevant Guidelines range as long as that range was part of the framework that the trial
court relied on in accepting the agreement. 1
Accordingly, the district court's denial of the motion for a reduction in sentence is VACATED, and the
case is REMANDED to the district court for reconsideration of the motion in light of Hughes.
Footnotes

1
In Garrett{2018 U.S. App. LEXIS 2}, we followed Justice Sotomayor's concurring opinion in Freeman

A06CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

1

v. United States, 564 U.S. 522, 534-544, 131 S. Ct. 2685, 180 L. Ed. 2d 519 (2011) (Sotomayor, J.,
concurring in the judgment), which stated that sentence reductions in this context would be permitted
where Rule 11 (c)(1 )(C) plea agreements, in express terms, tied the recommended sentence to the
Guidelines range. Garrett, 758 F.3d at 754 (citing the "controlling concurrence by Justice Sotomayor"
in Freeman). In Hughes, however, the Court embraced the plurality opinion from Freeman, which
permitted challenges where the trial court considered the Guidelines range more generally in the
framework that it used in accepting the agreement and imposing the sentence. 138 S. Ct. at 1776.

A06CASES

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX H
UNITED STATES V. VILLASENOR,
2018 U.S. App. LEXIS 28456
NINTH CIRCUIT (unpublished)

UNITED STATES OF AMERICA, Plaintiff-Appellee, v. JOSE LUIS VILLASENOR, a.k.a. Booger
Eyes, a.k.a. Green Eyes, Defendant-Appellant.
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
739 Fed. Appx. 453; 2018 U.S. App. LEXIS 28456
No. 16-50296
May 15, 2018**, Submitted
*★
October 9, 2018, Filed
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2018 U.S. App. LEXIS 1}Appeal from the United States District Court for the Central District of
California. D.C. No. 2:11-cr-00050-GAF-TJH. Terry J. Hatter, District Judge, Presiding.United States v.
Villasenor, 734 Fed. Appx. 487, 2018 U.S. App. LEXIS 12813 (9th Cir. Cal., May 17, 2018)
Disposition:
VACATED and REMANDED.
For UNITED STATES OF AMERICA, Plaintiff - Appellee: L. Ashley Aull,
Assistant U.S. Attorney, Kevin M. Lally, Esquire, Assistant U.S. Attorney, Justin Randall
Rhoades, Esquire, Assistant U.S. Attorney, Office of the U.S. Attorney, Los Angeles, CA.
JOSE LUIS VILLASENOR, AKA Booger Eyes, AKA Green Eyes,
Defendant - Appellant, Pro se, Joint Base MDL, NJ.
Judges: Before: SILVERMAN, BEA, and WATFORD, Circuit Judges.
Counsel

Opinion

{739 Fed. Appx. 454} MEMORANDUM*
Jose Luis Villasenor appeals pro se from the district court's order denying his motion for a sentence
reduction under 18 U.S.C. § 3582(c)(2). We have jurisdiction under 28 U.S.C. § 1291, and we vacate
and remand.
Villasenor contends that he is eligible for a sentence reduction under Amendment 782 to the
Sentencing Guidelines. We review de novo whether a district court had authority to modify a
sentence under section 3582(c)(2). See United States v. Leniear, 574 F.3d 668, 672 (9th Cir. 2009).
Because Villasenor was sentenced after the district court accepted the parties' Federal Rule of
Criminal Procedure 11(c)(1)(C) plea agreement, he is not eligible for relief under section 3582(c)(2)
unless "the district court's decision to accept the plea and impose the recommended sentence{2018
U.S. App. LEXIS 2} was based on the Guidelines." United States v. Davis, 825 F.3d 1014, 1027 (9th
Cir. 2016) (en banc) (quotations omitted).
The Supreme Court recently clarified that "a sentence imposed pursuant to a Type-C agreement is
'based on' the defendant's Guidelines range so long as that range was part of the framework the

A09CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

district court relied on in imposing the sentence or accepting the agreement." Hughes v. United
States. 138 S. Ct. 1765, 1775, 201 L. Ed. 2d 72 (2018). The district court in this case did not have
the benefit of Hughes when it denied Villasenor's motion; therefore, we vacate its order denying relief
and remand. On remand, the district court shall determine whether Villasenor is eligible for a
sentence reduction under Hughes and, if so, whether he should receive a reduction in light of the 18
U.S.C. 3553(a) sentencing factors. See Dillon v. United States, 560 U.S. 817, 826, 130 S. Ct. 2683,
177 L. Ed. 2d 271 (2010).
VACATED and REMANDED.

A09CASES

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

